14No.
31n tlje

Supreme Court of tfje lintteti H>tate£
LOUIS S. SHUMAN; SANDRA SHUMAN,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit
PETITION FOR WRIT OF CERTIORARI

Louis S. Shuman
120 South Lee Street
Alexandria, VA 22314
(301) 641-6003
Email: lshumani@msn.com

FILED
JAN 2 1 2020

Sandra Shuman
120 South Lee Street
Alexandria, VA 22314
(301) 641-6003
Petitioner Pro Se

Petitioner Pro Se

Becker Gallagher ■ Cincinnati, OH • Washington, D.C. ■ 800.890.5001

RECEIVED
JAN 2 4 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

a

1

QUESTION PRESENTED
The question presented is:
Whether the IRS and lower Courts application of
IRC 6214(b) and IRC 6402 violate the Due Process
Clause of the 5th Amendment.

!

i

I

.*•

,C

5

J

11

STATEMENT OF RELATED PROCEEDINGS
Louis S. Shuman and Sandra Shuman v. Commissioner
of Internal Revenue No. 18-2426(L) (9th Cir.) (opinion
issued and judgment entered August 15, 2019;
mandate issued October 30, 2019.
Louis S. Shuman and Sandra Shuman v. Commissioner
of Internal Revenue No. 19-1242 (9th Cir.) (opinion
issued and judgment entered August 15, 2019;
mandate issued October 30, 2019.
There is an additional proceeding pending before the
U.S. Tax Court, for the tax years 2008, 2009 and 2010.
The final decision in this case will be binding on the
case pending in the U.S. Tax Court.

Ill

TABLE OF CONTENTS
QUESTION PRESENTED

1

STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES

Vll

PETITION FOR WRIT OF CERTIORARI

1

INTRODUCTION

3

OPINIONS BELOW

5

JURISDICTION

5

CONSTITUTIONAL AND
STATUTORY
PROVISIONS INVOLVED................................. 5
STATEMENT OF THE CASE

6

A. Fact History: Events Giving Rise to This Tax
Dispute................................................................ 6
ARGUMENT

9

A. Applicable Law Relating To the Facts Of This
Case.................. ................................................... 14
B. The Issues And Question Presented is of
National Significance and Exceptionally
Important............................................................ 18
CONCLUSION

18

s>

i

IV

APPENDIX
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Fourth
Circuit
(August 15, 2019)
App. 1
Appendix B Memorandum Findings of Fact and
Opinion and Decision in the United
States Tax Court
(August 23, 2018)
App. 6
Appendix C Order in the United States Tax Court
(November 30, 2018). .
App. 39
Appendix D Order in the United States Tax Court
(November 30, 2018)
App. 40
Appendix E Order and Decision in the United
States Tax Court
(December 7, 2018)
App. 43
Appendix F Supplement
to Respondent’s
Computations for Entry of Decision,
Filed November 20, 2018 in the
United States Tax Court
(December 6, 2018)
App. 46
Appendix G Order Denying Petition for Rehearing
and Rehearing En Banc in the United
States Court of Appeals for the Fourth
Circuit
(October 22, 2019)
App. 49

V

Appendix H Stay of Mandate under Fed. R. App.
P. 41(d)(1) in the United States Court
of Appeals or the Fourth Circuit
(October 1, 2019)
App. 51
Appendix I

Mandate in the United States Court of
Appeals for the Fourth Circuit
(October 30, 2019)
App. 53

Appendix J Notice of Federal Tax Lien 2005-2007
(July 3, 2009)
App. 55
Appendix K Appeals Transmittal and Case Memo
-CDP
(April 5, 2011)
App. 58
Appendix L Decision
Letter Concerning
Equivalent Hearing Under Section
6320 and/or 6330 of the Internal
Revenue Code
(April 21, 2011)
App. 61
Appendix M Certificate of Release of Federal Tax
Lien 2005-2007
(May 4, 2011)
App. 69
Appendix N IRS Notice of Overpaid Tax Applied to
Other Taxes You Owe for Tax Year
December 31, 2007
(May 16, 2011)
App. 72
Appendix O IRS Notice We Intend to Levy on
Certain Assets
(September 20, 2010)
App. 76

vi
Appendix P IRS
Notice
of Determination
Concerning Collection Action(s) under
Section 6320 And/or 6330 of the
Internal Revenue Code for Tax Period
December 2011
(June 6, 2014)
App. 84
Appendix Q Form 1040X Amended U.S^ Individual
Income Tax Return (fold-out exhibit)
and Letter to IRS from Louis and
Sandra Shuman
(April 16, 2012).
. App. 92
Appendix R 26 U.S.C. § 6214
26 U.S.C. § 6402

App. 115
App. 117

\

Vll

TABLE OF AUTHORITIES
CASES
Bolling v. Sharpe,
347 U.S. 497 (1954)

18

Bull v. United States,
295 U.S. 247 (1935)

16

Estate of Mueller v. Commissioner.
101 T.C. 551 (1993)

16

Goldberg v. Kelley.
397 U.S. 254 (1970)

18

Matthews v. Eldridge,
429 U.S. 319 (1976)

18

Menard, Inc, v. Commissioner.
130 T.C. 54 (2008), rev’d on another issue
560 F.3d 620 (7th Cir. 2009)
15, 16, 17, 18
Stone v. White,
301 U.S. 532 (1937)

17

United States v. Palm,
494 U.S. 596 (1990)

16

CONSTITUTION
U.S. Const. Amend. 5

5

STATUTES
26U.S.C. § 6214

2, 5, 14, 15

26 U.S.C. § 6402

5, 9, 10, 14

Vlll

OTHER AUTHORITIES
Harold Dubroff & Brant Hellwig “The United States
Tax Court-An Historical Analysis” (Second
Edition, 2014)..........................................
3, 15
Internal Revenue Service DataBook-2012

1

Internal Revenue Service DataBook-2018

1

“(Un)Appealing Deference to the Tax Court” (2014).
Articles by Maurer Faculty. Paper 1304.
http://www.repository.law.indiana.edu/facpub/
1304, [Vol 63 Duke Law Journal]......................

3

Volume One Taxpayer Advocate Service-2018
Annual Report to Congress.................................

3

1
PETITION FOR WRIT OF CERTIORARI
Internal Revenue Service statistics show that the
overall number of individual tax returns filed in 2011,
and subjected to audit in 2012 was 1% of all returns
filed; and, for Petitioners’ tax bracket, the number was
approx 2.6%.1 The most recently available IRS audit
statistics show that individual tax returns filed in
2017, subjected to audit in 2018, was .06% of all
returns filed; and, for Petitioners’ tax bracket, the
number was approx.0.6%.2
The selection of Petitioners’ 2011 return for audit
clearly shows that IRS had major and substantial
concerns and objections with the 2011 return as filed,
given the extremely low numbers of returns typically
selected for audit. Petitioners’ original return for 2011,
dated January 23, 2013, and filed with IRS on
February 4, 2013, showed that Petitioners claimed the
amount of $566,889 as estimated tax payments to be
applied to the 2011 tax year from tax year 2010.
Petitioners $566,889 claim of estimated tax
payments from 2010, reduced the self-reported tax of
$40,543 that would otherwise have been due for 2011,
with the result that petitioners claimed overpayment
of 2010 estimated tax constituted a self-reported refund
claim in 2011 in the amount of $526,346.

Internal Revenue Service DataBook-2012, at p.22.
2 Internal Revenue Service DataBook-2018, at p.23.

7

2

Petitioners refund claim of $526,346 for 2011, were
based on amended returns filed for 2010, containing
the following claimed deductions: (1) corrections in
calculating stock option basis, to reduce overpayments
of income in prior years; and (2) a claimed casualty loss
deduction of $197,337.
In the decision below, the Fourth Circuit, in an
unpublished, precedentially non-binding per curiam
opinion, upheld the LJ.S. Tax Court, based on the
reasoning set forth in the Tax Court’s decisions and
orders. The Tax Court gave a detailed analysis for its
denial of the $197,337 claimed casualty loss deduction,
but gave no detailed analysis or explanation for denial
of the stock option basis deduction, other than to assert
that the Tax Court lacked jurisdiction to rule on any
taxpayer claim of overpayment or underpayment,
under 26 U.S.C. (“IRC”) 6214(b), for any year other
than 2011. Yet, there was an IRS acknowledged
overpayment of $57,668 from 2007, in the record, which
was only partially applied to liabilities by IRS, and
which was not addressed by the Tax Court. And, IRC
6214(b) authorized an independent basis for Tax Court
jurisdiction, under the doctrine of equitable
recoupment, that covers non-deficiency years.

3
INTRODUCTION
The vast majority of taxpayers in the United States
lack the resources to “pay up” and contest a tax dispute
with the IRS in the Federal Courts. In 1989, 95% of all
federal tax disputes were handled by the U.S. Tax
Court.3 In 2012, 96.8% of all federal tax cases were
docketed with the U.S. Tax Court.4
Statistics for 2010-2012 show that over 75% of cases
filed with the U. S Tax Court, were pro se cases.5 In
the Taxpayer Advocate Service’s 2018 Report to
Congress, over 80% of cases before the Tax Court were
reportedly brought by pro se litigants.6

3 Harold Dubroff & Brant Hellwig “The United States Tax
Court-An Historical Analysis” (Second Edition, 2014), Page 233, at
Footnote 372. This Treatise, hereafter called the “Dubroff-Hellwig
Treatise” gives a comprehensive analysis of the history of the U.S.
Tax Court, including the issue of Tax Court jurisdiction generally,
as well as the complex history of Tax Court jurisdiction regarding
refund claims. This Treatise is now prominently referenced in the
Main Page of the U.S. Tax Court’s official website.
4 Lederman Leandra “(Un)Appealing Deference to the Tax Court”
(2014). Articles by Maurer Faculty. Paper 1304.
http://www.repository.law.indiana.edu/facpub/1304, Page 3,
Footnote l[Vol 63 Duke Law Journal, at Page 1836, Footnote 1],
5 Lederman, supra, at Page 4, Footnote 3 [Vol 63 Duke Law
Journal, at Page 1837, Footnote 3].
6 Volume One Taxpayer Advocate Service-2018 Annual Report to
Congress, at p.295.

A

4
Thus, for the overwhelming majority of taxpayers,
if the tax dispute is not resolved within the
administrative proceedings before IRS, then, as a
practical matter, the taxpayer’s limited recourse is to
file a Petition with the U.S. Tax Court.
Huge roadblocks then come into the line of sight of
the taxpayer seeking justice down the road in Tax
Court: one, the amount of the federal tax in dispute;
two, the cost, and complexity, of the litigation process.
And three, the typically unsophisticated taxpayer is
now opposed by U.S. Government attorneys, familiar
with the complexities of tax law and litigation, and
backed by the full force, might, and resources, of the
federal government.
These obstacles simply become too much to
overcome, for the typical taxpayer. Unless IRS is held
to the minimum standard of following its own rules, as
opposed to arbitrary and capricious application of its
own rules, the average taxpayer has little hope of
success, on the administrative level, or before the Tax
Court. Without IRS accountability, requiring IRS to
follow and enforce its own rules, the key element in the
justice equation-the merits of the case- is effectively
eliminated from the justice equation.

5
OPINIONS BELOW
The Fourth Circuit opinion and judgment (August
15, 2019) are reproduced at Appendix A, p. 1. The
Memorandum Findings of Fact and Opinion and
Decision in the United States Tax Court (August 23,
2018) are reproduced at Appendix B, p. 6. The Order in
the United States Tax Court (November 30, 2018) is
reproduced at Appendix C, p. 39. The Order in the
United States Tax Court (November 30, 2018) is
reproduced at Appendix D, p. 40. The Order and
Decision in the United States Tax Court (December 7,
2018) is reproduced at Appendix E, p. 43. The Order
Denying Petition for Rehearing and Rehearing En Banc
' in the United States Court ofAppeals for the Fourth Circuit
(October 22, 2019) is reproduced at Appendix G, p. 49.
JURISDICTION
The Fourth Circuit Order Denying Petition for
Rehearing and Rehearing En Banc was rendered on
October 22, 2019, and Petitioners have appealed within
the 90 day time limit.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fifth Amendment provides, in relevant part
that: “No person shall be ...deprived of life, liberty, or
property without due process of law...” U.S. Const.
Amend. 5.
The relevant provisions of the federal tax statutes:
IRC 6214 and IRC 6402 are reproduced at Appendix R,
at pp. 115-117.

A

6
STATEMENT OF THE CASE
A. Fact History: Events Giving Rise to This Tax
Dispute
IRS filed a Federal Tax Lien against Petitioners,
dated July 3, 2009, in the amount of $240,306.75, for
unpaid income taxes for the years 2005, 2006 and 2007.
Appendix J, at pp. 55-57.
For 2005, IRS prepared a Substitute Return-Form
1040A, and claimed $2872.07 was owed by Petitioners
for that year, at the time of the filing of the Tax Lien.
See IRS Appeals Office-Washington DC (hereafter
called “IRS Washington Appeals Office”) Decision
Letter dated April 21, 2011 which states that “... the
balance for 2005 was the result of an additional tax
assessment completed by the Internal Revenue
Service’s Examination Division.” Appendix L, Page 64;
Appendix N, pp.72-73. For 2006, the lien was for
$115,542.60; and for 2007 the lien was for $121,892.08.
Petitioners filed for a
Collection Due
Process-Equivalent Hearing, submitting their amended
returns for 2005, 2006 and 2007 in support. Appendix
L, pp.67-68. Petitioners represented to the IRS
Washington Appeals Office, supported by their
2005-2007 returns, that the $240,306.75 liability set
forth in the Tax Lien was not owed by Petitioners, since
there were errors in calculating the cost basis of stock
options; and in correcting the errors in the calculation
of stock basis, Petitioners were entitled to a refund.
Appendix L, at p.64.

7

ft.:

The IRS Washington Appeals Office accepted
Petitioners amended returns for 2005, 2006, and 2007,
and made the following adjustments, based on
Petitioners claim of errors in the calculation of stock
option basis, as set forth in those returns.
For 2005, IRS Washington Appeals Office
determined, in its CDP Case Memo dated April 21,
2011, that the statute of limitations for refund claims
had expired for 2005 (Appendix L, p.66); and that
“...there is a small balance for 2005 which may be
reduced to zero by the amended return for the period.”
Appendix K, at p.59.
For 2006, IRS Washington Appeals Office, in its
CDP Case Memo dated April 21, 2011, determined that
“... [d]ue to the amended returns there is no balance for
2006.” Appendix K, at p.59. IRS Washington Appeals
Office further determined, in its Decision Letter dated
April 21, 2011 that: there was a credit due Petitioners
of $30,743.50 for 2006, but this credit could not be
refunded to Petitioners because the statute of
limitations had expired. Appendix L, pp.65-66.
For 2007, IRS Washington Appeals Office Decision
Letter dated April 21, 2011, determined that there was
no income tax due for 2007, but there was an estimated
tax penalty of $3,693.35, which would be abated by IRS,
resulting in no tax due for 2007. Appendix L, p.65-66.
Although, the IRS Washington Appeals Office
Decision Letter, dated April 21, 2011, also stated that
“.. there is still a balance” remaining for tax year 2005,
and so the Tax Lien remains (Appendix L, at p.66), the
IRS Washington Appeals Office also determined, in its

A

8
CDP Case Memo dated April 21, 2011, that Petitioners
return for 2005 reduced the tax due for 2005 to “0”.
Appendix K, p.59.
IRS then issued a Certificate of Release of Tax Lien,
(“Certificate”) dated May 4, 2011. Appendix M, pp.6971. Specifically, the Certificate stated that Petitioners
“satisfied the taxes listed below and all statutory
additions”, thereby releasing the lien of $2,872.07 for
2005, the lien of $115,542.60 for 2006, and the lien of
$121,892.08 for 2007. Appendix M, at pp. 69-70.
Within approx. 12 days of filing the Certificate
releasing the $240,306.75 Tax Lien for 2005-2007, IRS
issued to Petitioners its Letter dated May 16, 2011,
explaining additional adjustments arising from the
overpayments derived from their recently filed 20052007 returns. Specifically, $1,315.72 of overpaid taxes
for 2007, was applied to Petitioners’ 2005 return as
follows: $406.39 was applied to satisfy amounts owed
arising from IRS Form 1040A-substitute return; and
$909.33 was applied to satisfy amounts owed IRS from
their amended Form 1040 for 2005. Appendix N,
pp.72-73. IRS also notified Petitioners that they “...
may still be due a refund if we applied only part of your
overpayment to other taxes.” Appendix M, at pp.72-73.
The 2005-2007 tax returns of Petitioners, upon
which IRS determined the tax lien of $240,306.75 was
fully satisfied for the tax. years 2005-2007, are
specifically identified as follows:
(1) Form 1040X amended return for 2005, dated
July 23, 2010, stating overpayment of income tax in the

9
amount of $26,454. Exhibit 18-P, 4th Circuit Informal
Appendix, at p.214; pp.214-223;
(2) Form 1040X amended return for 2006, dated
July 23, 2010, stating overpayment of income tax in the
amount of $56,384. Exhibit 21-P, 4th Circuit Informal
Appendix, at p.233; pp.233-238;
(3) Form 1040X amended return for 2007, dated
July 23, 2010, stating overpayment of income tax in the
amount of $57,668. Exhibit 24-P, 4th Circuit Informal
Appendix, at p.250; pp.250-255.
ARGUMENT
Petitioners above tax returns are not covered by the
Tax Court’s order excluding certain documents of
Petitioners, and are therefore in evidence; and, are
directly relevant to Petitioners refund claims in this
case. Appendix C, at p.39.
Specifically, although the IRS Washington Appeals
Office asserted that Petitioners refund claims for 2005
and 2006 were barred by the statute of limitations, no
such position was taken for 2007, and so there was a
timely and valid refund claim for 2007 for in the
amount of $57,668 (less the $1,315 applied to satisfy
the income tax due for 2005).
IRC 6402, provides in relevant part, that IRS is
entitled to credit any taxpayer overpayment by
applying the credit to any tax due to IRS. Petitioners
were therefore not expecting refunded monies for 2007,
but were entitled to have the 2007 overpayment be
applied to future taxes due IRS.

10
Despite this clear entitlement to have the IRS
admitted overpayments from the 2007 tax year be
applied to tax due for future years, as evidenced by the
IRS Washington Appeals Office CDP Case Memo dated
April 21, 2011, the Decision Letter dated April 21,
2011, the Certificate of Release of Tax Lien dated
May 4, 2011, and the IRS Overpayment Adjustment
Letter dated May 16, 2011, IRS has flatly disregarded
its own rulings and refused to credit Petitioners for the
acknowledged overpayments for 2007.
While IRC 6402 entitles IRS to apply the 2007
overpayment to taxes due for future years, IRC 6402
does not permit IRS to make an acknowledged credit
completely disappear. To the contrary, IRC 6402, in
relevant part, specifically states that the amount of any
overpayment may be credited to any tax liability owed,
but then the IRS shall refund any balance still due to
the taxpayer.
Here, the acknowledged overpayment, which should
have been applied to liabilities for future years
completely disappears, as if the acknowledged
overpayment never existed, and Petitioners were given
no credit for this $57,668 (less the $1,315 applied to
satisfy the income tax due for 2005) acknowledged
overpayment for 2007, in violation of IRC 6402(a).
For the years, subsequent to 2005-2007, Petitioners
took the following action:
For 2008, Petitioners filed their 2008 income tax
return dated July 23, 2010. 4th Circuit Informal
Appendix, at pp. 694-717. This original return was
amended by Petitioners Form 1040X income tax return

11
for 2008 dated April 16, 2012. Exhibit 33P-4th Circuit
Informal Appendix, at pp. 308-321.
For 2009, Petitioners filed their 2009 income tax
return dated July 23, 2010. Exhibit 34P, 4th Circuit
Informal Appendix, pp. 322-344. This original return
was amended by Petitioners Form 1040X income tax
return for 2009 dated April 16, 2012. Exhibit 35P, 4th
Circuit Informal Appendix, pp. 345-358.
For 2010, Petitioners filed their 2010 income tax
return dated October 13, 2011. Exhibit 3J, 4th Circuit
Informal Appendix, pp.83-103. This original return was
amended by Petitioners Form 1040X income tax return
for 2009 dated April 16, 2012. Exhibit 35P, 4th Circuit
Informal Appendix, pp. 345-358. Petitioners, thereafter
filed a second Form 1040X amended return dated
January 23, 2013. Exhibit 37J, 4th Circuit Informal
Appendix pp.373-374.
From 2005-2010, Petitioners central basis for their
refund claim was founded on their claim for
adjustments to be made for errors in calculation of
stock basis. In each of these years Petitioners
supported and substantiated their claims with detailed
analysis and explanations of the relevant facts and
applicable law. See Appendix Q, at pp. 92-119:
Petitioners Form. 1040X amended return for
2006-Exhibit 31P.
In their 2010 return, Petitioners continued raising
the claim for refund adjustments based on stock option
basis calculations: claims which IRS continued to be
ignore, without explanation, as if they were never made
in the first place. But, in this year, Petitioners also

12
raised the claim for a casualty loss deduction, in the
amount of $197,337, based on Petitioners forced sale of
their home to find the money to pay IRS to satisfy
income tax debts- tax debts which subsequently turned
out to be overstated, and conceded by IRS to be
overstated. See Petition, at p. 10.
For 2011, Petitioners filed their 2011 income tax
return dated January 23, 2013. Exhibit 1J, 4th Circuit
Informal Appendix, pp.70-79.
IRS then audited Petitioners 2011 return, and
issued a Notice of Deficiency dated August 27, 2013
(“Deficiency Notice”). Exhibit 9J-4th Circuit Informal
Appendix, at pp. 124-146.
In addressing the finding of the Deficiency Notice,
and in addressing Petitioners claim of: (1) estimated
tax payments of $566,889.00 from 2010 to be applied to
2011,and (2) casualty loss claim for $197,337, (after
noting IRS disallowance of the casualty loss claimed,
which the Tax Court affirmed) the Tax Court
specifically referenced the following language contained
in the Deficiency Notice: “... based on the exam there is
no evidence to support the prior year over-assessment
in the amount of $566,889. As a result there are no
payments applied to the total tax owed for tax year
2011.” Appendix B, at p. 14.
By this statement, that there is no evidence to
support any payment amounting to $566,889, the IRS,
in effect was allowed to sidestep, avoid, and completely
ignore any analysis or explanation to address
Petitioners claim of stock basis adjustments. This
statement also gave cover to IRS’ self evidently

13
extreme position of completely disregarding the IRS
Washington Appeals Office’s admission that there was
an overpayment from 2007 that Petitioners were
entitled to have applied to future year tax liabilities.
IRS Washington Appeal Office had also
acknowledged an overpayment of 30,743.50 for 2006,
but stated that this overpayment was a prohibited
refund since it did not comply with the statute of
limitations governing refunds. Petitioners expressed
disagreement with the IRS position on the timeliness
of their refund claims, and repeatedly, year after year,
gave their detailed fact and legal explanation as to why
they believed they were in compliance with the
applicable refund limits, as to time and amount. See
Appendix Q, at pp. 92-119.
It needs to be noted that this tax dispute came to a
head approx, in the year 2009, when Petitioners began
their objection to IRS’s filing of a Tax Lien dated
July 3, 2009. Petitioners Tax Court Petition was filed
in November, 2013, and the Tax Court rendered no
final decision until approx. 6 years later, in December,
2019.
Through all these approx. 10 years of disputed
taxes, there is nothing in the entire record that shows
any IRS reasoning, analysis, or explanation, aside from
a short conclusory statement, that addresses the issue
of statute of limitations. The affirmative defense of
statute of limitations was not even raised in IRS’s
responsive pleadings to Petitioners Petition in Tax
Court.

14
In like manner, there is nothing in the entire record
of this case, that shows any IRS reasoning, analysis, or
explanation, in opposition to Petitioners position on the
calculation of stock option basis. On the contrary, the
record shows that the IRS Washington Appeals Office
accepted Petitioner’s position.
A. Applicable Law Relating To the Facts Of This
Case
Under IRC 6402, Petitioners acknowledged
overpayment for 2007, of $56,384, should have been
applied in full to taxes due, but was not. And there is
nothing in the record to explain why this happened,
other than the inference, from the record, that IRS
arbitrarily chose to ignore it.
The Tax Court ruled that, under IRC 6214(b), it had
no jurisdiction to rule on any refund claim, other than
a refund claim arising from the deficiency year of 2011.
Since Petitioners refund claims covered non-deficiency
years, the Tax Court ruled that Petitioners refund
claims for non-deficiency years were irrelevant, citing
the following language of IRC 6214(b), which states, in
relevant part, that the Tax Court, in deciding the tax
for a deficiency year “... shall consider such facts with
relation to the taxes for other years... as may be
necessary correctly to determine the amount of suchdeficiency, but in so doing shall have no jurisdiction to
determine whether or not the tax for any other year...
has been overpaid or underpaid.”
With respect to the acknowledged overpayment of
$56,384 for 2007, IRS had already ruled the
overpayment was valid, so the Tax Court was not

15
tasked with deciding on this acknowledged
overpayment. IRC 6214(b) was therefore no obstacle to
Tax Court jurisdiction to require IRS to acknowledge
and apply the $56,384 to outstanding liabilities of
Petitioners.
As fully analyzed in the Dubroff-Hellwig Treatise,
at Pages 358-377, the Tax Court has jurisdiction over
refund claims involving non-deficiency years under the
doctrine of equitable recoupment. In 2006, Congress
amended IRC 6214(b) to add the following language:
“Notwithstanding the preceding sentence, the Tax
Court may apply the doctrine of equitable recoupment
to the same extent it is available in civil tax cases
before the district courts of the United States and the
United States Court of Federal Claims.” DubroffHellwig Treatise, at p.375.
The case of Menard, Inc, v. Commissioner, 130 T.C.
54 (2008), rev’d on another issue 560 F.3d 620 (7th Cir.
2009), is cited in the Dubroff-Hellwig Treatise, at
p.376, to describe the Tax Court’s interpretation of its
expanded jurisdiction under the doctrine of equitable
recoupment, and states the following in relevant part:
“As interpreted by the Tax Court in Menard, the
statutory “confirmation” of the Tax Court’s jurisdiction
to entertain claims of equitable recoupment contained
in [IRC] 6214(b) actually served to expand the court’s
recoupment jurisdiction. The provision not only
clarified that the court could address claims relating to
periods outside those covered by the statutory notice of
deficiency for recoupment purposes, the provision
further allowed the court to determine the taxpayers’s

16
liability for a tax outside of the court’s original
jurisdiction.”
In Menard, the Court ruled that: “The doctrine of
equitable recoupment is a judicially created doctrine
that, under certain circumstances, allows a litigant to
avoid the bar of an expired statutory limitation period.
United States v. Palm. 494 U.S. 596 ...(1990); Bull v.
United States, 295 U.S. 247... (1935). The doctrine
prevents an inequitable windfall to a taxpayer or to the
Government that would otherwise result from the
inconsistent tax treatment of a single transaction, item,
or event affecting the same taxpayer or a sufficiently
related taxpayer. Estate of Mueller v. Commissioner,
101 T.C. 551... (1993).... Equitable recoupment operates
as a defense that may be asserted by the taxpayer to
reduce the Commissioner’s timely claim of a deficiency,
or by the Commissioner to reduce the taxpayer’s timely
claim for a refund.... When applied for the benefit of a
taxpayer, the equitable recoupment doctrine allows a
taxpayer to recoup the amount of a time-barred
overpayment by allowing the overpayment to be
applied as an offset against a deficiency if certain
requirements are met.” 130 T.C. at pp. 62-63.
Menard identifies the elements of an equitable
recoupment claim as follows: (1) the overpayment or
deficiency is barred by an expired statute of
limitations; (2) the time barred overpayment or
deficiency arose out of the same transaction, item or
taxable event as the overpayment or deficiency before
the court; (3) the transaction, item or taxable event has
been inconsistently subjected to two taxes; and (4) the
same taxpayer is involved, or there is an identity of

17
interest regarding the taxpayer(s) involved. 130 T.C. at
pp.62-63. On the inconsistent element, it has been held
that there is equitable recoupment where a party seeks
recoupment for inconsistent treatment of a time-barred
claim relating to the same transaction. Stone v. White
301 U.S. 532 (1937).
In this case, despite strenuous objection by
Petitioners, it remains the position of IRS that
Petitioner’s stock option refund claims are barred by
the statute of limitations; the same taxable events are
involved; the taxable events have been treated
inconsistently; and the same taxpayers are involved.
The Tax Court then, did have jurisdictional authority
to decide Petitioner’s claim under the doctrine of
equitable recoupment.
With respect to the 2006 claim, wherein IRS
acknowledged the existence of an overpayment of
$30,743.50, but IRS also claimed this overpayment was
barred by the statute of limitations, the equitable
recoupment doctrine should have allowed that sum to
be applied to reduce Petitioners’ tax liabilities. And, the
Tax Court could have directed application of $30,743.50
to Petitioners’ tax liabilities. Yet, nothing was done:
and so, these monies remain in a suspense account, and
have not been allowed to be applied to Petitioners
liabilities, despite the authority to do so.
In fact, the IRS Washington Office’s treatment of
petitioners 2005-2007 tax returns, to eliminate their
tax liabilities for 2005-2007, appear to show IRS
application of the equitable recoupment doctrine,
without specifically stating that it was doing so. As
stated in Menard, the Tax Court’s expanded

18
jurisdiction under the doctrine of equitable recoupment
offers clarity and a meaningful measure of
simplification in that both parties can be confident that
the Court may provide a complete remedy for a given
taxable year.” 130 T.C. at p. 67.
B. The Issues And Question Presented is of
National Significance and Exceptionally
Important
Federal tax disputes are virtually all presented to
IRS in the first instance, and for the overwhelming
majority of taxpayers, who are primarily pro se
complainants, their last resort to seek remedy in their
tax dispute is the Tax Court. These federal entities
should be held accountable for application of their own
rules and procedures, in a non-arbitrary manner,
especially when dealing with the vulnerable and
unsophisticated. The decisions below should have been
based on the full and entire record of evidence in the
case, and not on a partial, selective review of the
evidence in the record. Goldberg v. Kelley, 397 U.S. 254
(1970); Matthews v. Eldridge, 429 U.S. 319 (1976);
Bolling v. Sharpe, 347 U.S. 497 (1954).
CONCLUSION
For the foregoing reasons, this Court should grant
the petition for certiorari.

19
Respectfully submitted,
Louis S. Shuman
120 South Lee Street
Alexandria, VA 22314
(301) 641-6003
Email: lshumani@msn.com
Petitioner Pro Se
Sandra Shuman
120 South Lee Street
Alexandria, VA 22314
(301) 641-6003
Petitioner Pro Se
January 21, 2020

